No. 20-649

In the Supreme Court of the United States
LEVEL THE PLAYING FIELD, ET AL., PETITIONERS,
v.
FEDERAL ELECTION COMMISSION
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

BRIEF OF NONPROFIT LEADERS, SCHOLARS,
AND PRACTITIONERS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS

REBECCA L.D. GORDON
Counsel of Record
ANDRAS KOSARAS
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
rebecca.gordon@
arnoldporter.com
Counsel for Amici Curiae

TABLE OF CONTENTS
Page

Table of Authorities ........................................................... II
Interest of Amici Curiae .................................................... 1
Summary of Argument ........................................................ 4
Argument .............................................................................. 6
I. The CPD’s Informal Conflict-of-Interest Policy
Willfully Ignores Partisan Conduct by Falling
Woefully Short of Basic Standards of
Governance Applicable to Nonprofit
Organizations ................................................................ 7
II. The CPD’s Informal Conflict-Of-Interest
Policy Is Incapable Of Preventing The
Appearance Of Partisanship...................................... 12
Conclusion ........................................................................... 15

(I)

TABLE OF AUTHORITIES
Cases

Page(s)

Level the Playing Field v. Fed. Election Comm’n,
232 F. Supp. 3d 130 (D.D.C. 2017) ................................... 5
Statutes

15 U.S.C. 7264 ....................................................................... 8
Sarbanes-Oxley Act of 2002,
Pub. L. No. 107-204, 116 Stat. 745 ................................... 8
Nonprofit Revitalization Act of 2013,
N.Y. Not-for-Profit Corp. Law § 715-a(a)-(b) ................ 9
Other Authorities

BoardSource, Leading with Intent: 2017 National
Index of Nonprofit Board Practices (2017),
https://bit.ly/35S5wxW...................................................... 7
BoardSource, Nonprofit Governance Index 2012
(2012), https://bit.ly/35UwIw7.......................................... 7
BoardSource, The Sarbanes-Oxley Act and
Implications for Nonprofit Organizations
(Jan. 2006), https://bit.ly/3fmAUY .................................. 8
Independent Sector, Principles for
Good Governance and Ethical Practice (2015),
https://bit.ly/3nKUEIg ............................................... 9, 12
IRS Form 990 (2018).......................................................... 10
IRS Form 14114 (2009) ...................................................... 10
IRS, Governance and Related Topics - 501(c)(3)
Organizations (Feb. 4, 2008),
https://bit.ly/3m7Wqm8 .................................................. 11
N.Y. Att’y Gen., Conflicts of Interest Policies Under
the Nonprofit Revitalization Act of 2013, Guidance
Document 2015-4 (Apr. 2015) ......................................... 10

(II)

III

Other Authorities (Continued)

Page(s)

Panel on the Nonprofit Sector, Strengthening
Transparency Governance Accountability of
Charitable Organizations: A Final Report to
Congress and the Nonprofit Sector (2005),
https://bit.ly/3fpf5Yc ..................................................... 8, 9
Urban Institute, Nonprofit Governance in the
United States: Findings on Performance and
Accountability from the First National
Representative Study (Sept. 2012),
https://bit.ly/35UwIw7 ...................................................... 7

INTEREST OF AMICI CURIAE1

Amici curiae are eight prominent leaders, scholars,
and practitioners with considerable experience in the nonprofit sector. All of the amici are dedicated to ensuring
public trust in the nonprofit organizations with which they
are affiliated, or to the study or practice of nonprofit law,
and therefore have a direct stake in the implications of
this case for public trust in the nonprofit community at
large2:
 Norman R. Augustine is a recently retired member of
the Bipartisan Policy Center’s Board of Directors. He
served as chairman and principal officer of the American Red Cross for nine years, and as chairman of the
National Academy of Engineering and the Defense
Science Board. Mr. Augustine has served as Under
Secretary of the Army and later Acting Secretary of
the Army, and as Lecturer with the Rank of Professor
on the faculty of Princeton University. He is a former
president of the American Institute of Aeronautics
and Astronautics and the Boy Scouts of America.


Admiral Dennis C. Blair is the Knott Distinguished
Visiting Professor at the University of North Carolina,
Chapel Hill. He is the former United States Director
of National Intelligence and a retired United States
Navy admiral. He also serves as a member of the Energy Security Leadership Council and is on the boards

No counsel for a party authored this brief in whole or part, and
no counsel or party made a monetary contribution to fund the preparation or submission of this brief. No one other than the amici
curiae, their members, and their counsel made any monetary contribution to its preparation and submission. The parties were given
timely notice and consented to this filing.
2
Amici include for the Court’s reference their current and former
professional and personal affiliations, but submit this brief in their
personal capacities only.
1

(1)

2
of Freedom House, the National Bureau of Asian Research, the National Committee on U.S.-China Relations, and No Labels.


Mary McInnis Boies serves as counsel to Boies Schiller Flexner LLP. She is a member of the Board of Directors of the Council on Foreign Relations and chairs
its Committee on Nominations and Governance. She
is a former Second Circuit representative to the American Bar Association’s Standing Committee of Federal
Judiciary.



W. Bowman Cutter was Chairman of the Board of
CARE, a global development organization, for over
seven years, and was a member of the Board for 20
years; and is a founder and immediate past Chairman
of MicroVest, a leading global microfinance fund with
assets under management now in excess of $400 million. He is the immediate past Chairman of the Board
of Resources for the Future, one of the most important
energy and environmental research institutes in the
world; and Chairman of the Tunisian American Enterprise Fund (TAEF), which was founded by the United
States government to help the Tunisian economy
through private sector investment. In addition, Mr.
Cutter is Co-Chair of the Fiscal Health Subcommittee
and past Co-Chairman of the Committee for Economic
Development, the leading business “think-tank” in the
United States. Mr. Cutter is a member of the New
York Council on Foreign Relations.



Dr. James J. Fishman is a professor of law Emeritus
at the Elisabeth Haub School of Law at Pace University and has authored numerous books and articles on
nonprofit tax law and regulation. He is a co-author of
New York Nonprofit Law and Practice: With Tax
Analysis and a leading law school casebook, Nonprofit
Organizations: Cases and Materials, now in its fifth

3







edition. He previously served as the executive director of the Council of New York Law Associates (now
The Lawyers Alliance for New York) and Volunteer
Lawyers for the Arts.
Carla A. Hills is the chairman and CEO of Hills &
Company, International Consultants, which advises
companies on global trade and investment issues. Ms.
Hill serves as Co-Chair Emeritus of the Council on
Foreign Relations and of the Inter-American Dialogue; chair of the Advisory Board of the Center for
Strategic & International Studies, chair of the National Committee on U.S.-China Relations, member of
the executive committees of the Trilateral Commission, member of the Senior Advisory Council of the
Gerald R. Ford Presidential Foundation, and a member of Yale’s President’s Council on International Activities. She also serves as honorary board member of
the Peterson Institute for International Economics.
Dr. Vali R. Nasr is the Dean of the Johns Hopkins University Paul H. Nitze School of Advanced International Studies and a Nonresident Senior Fellow at the
Brookings Institution. He is a life member of the
Council on Foreign Relations. Dr. Nasr was previously a Senior Advisor to the U.S. Special Representative for Afghanistan and Pakistan and a member of the
U.S. Department of State’s Foreign Affairs Policy
Board.
Nancy E. Roman is the President and CEO of Partnership for a Healthier America (“PHA”). Prior to
joining PHA, she was the President and CEO of the
Capital Area Food Bank, an $80 million NGO addressing hunger and its companion problems of obesity and
diet-related disease. She has served on the leadership
team of the United Nation’s World Food Programme
and as Vice President of the Council on Foreign

4
Relations. Ms. Roman currently serves on the board
of Global Communities, a $125 million NGO working
on global development issues in 25 countries, and on
the board of the Millennial Action Project, an NGO
that seeks to engage and work with millennials serving
in government nationwide.
For decades, amici have studied, developed, implemented, and promoted specific standards of governance
and accountability within the nonprofit community, including with respect to identification and management of
apparent and actual conflicts of interests, to strengthen
public confidence in nonprofit organizations. Amici believe that an understanding of these standards in the context of the prevailing policies and practices of the Commission on Presidential Debates (CPD) will assist the
Court’s resolution of this important petition.
Many of the amici have had working relationships
with and greatly respect the Commissioners of the FEC
and the Directors of the CPD, and this brief is not intended to criticize their personal integrity. Rather, amici
question the rules and regulations under which the FEC
and CPD operate, which require or allow the FEC Commissioners and CPD Board of Directors to have partisan
affiliations.
SUMMARY OF ARGUMENT

This litigation is about safeguarding the integrity of
the nation’s presidential and vice-presidential debates
system. Petitioners have demonstrated throughout this
litigation that the CPD is not, as it claims to be, nonpartisan. CPD’s leaders and many of its board members have
been extensively involved in highly partisan activities for
both the Republican and Democratic parties, including by
participating in events for presidential and vice-presidential candidates from both parties. The Executive Director
of the CPD claims that an “informal” conflict-of-interest

5
policy—allegedly supplemented by a terse “Political Activities Policy” never produced by the CPD and that at
most “intend[s] to deter” rather than prohibit partisan activities—prevents the CPD board members from serving
in an “official” capacity in a political campaign. Pet. App.
104a. But this supposed “policy” is wholly inadequate to
prevent actual conflicts of interest, much less the appearance thereof.
As the district court observed, in its initial decision,
the Federal Election Commission (FEC) has “ignored” a
“mountain of submitted evidence” that is probative of the
CPD board members’ partisan conduct. Level the Playing Field v. Fed. Election Comm’n, 232 F. Supp. 3d 130,
142-43 (D.D.C. 2017). The CPD refuses to follow established best practices for conflict-of-interest policies in the
nonprofit sector, and the CPD’s purported policies do not
sufficiently address actual or potential conflicts arising
from partisanship at the CPD. Indeed, by eschewing formal conflict-of-interest policies that are explicit, written,
accessible, and, importantly, appropriately monitored for
compliance, the CPD has contravened an essential tenet
of responsible governance for a nonprofit organization,
thereby condoning and even encouraging the partisan activities of its board members without safeguarding its
nonpartisan tax-exempt purposes.
The integrity of the nation’s presidential and vicepresidential debates should not rest on informal and unenforceable conflict-of-interest policies—particularly
when those limited policies by their own terms ostensibly
permit CPD board members to consult “unofficially” with
political campaigns, contribute to fundraising efforts, and
even endorse candidates. The FEC’s post-remand decisions insulating this conduct are of profound importance
to the fairness and openness of our presidential elections.
This Court should grant certiorari and reverse the decision below.

6
ARGUMENT

At no point in this litigation has CPD offered evidence
of a formal, written conflict-of-interest policy governing
its board members’ partisan political activities that is enforceable and monitored for compliance. One of CPD’s
two purported policies, according to CPD’s own description, is “informal” and unwritten. See Pet. App. 104a. And
while the CPD claims to have another policy that is written, that policy has never been produced and thus cannot
meaningfully be evaluated. Moreover, the CPD admits
that its policy does not even prohibit partisan conduct, and
rather is at most “intended to deter” certain types of conduct. Pet. App. 104a. Because nothing is actually prohibited by this alleged policy, and no aspect of the policy is or
could be enforced, the alleged written policy is really no
policy at all. Consequently, even when the informal and
purported written components are considered together,
the CPD’s conflict-of-interest policy is entirely informal,
unenforceable, and unmonitored, which renders it a nullity. The policy rests on formalistic and unrealistic distinctions between “official” and “personal” participation
in political campaigns, Pet. App. 102a-105a, and it tries to
create a distinction that does not and cannot exist, at an
organization whose purpose is to host the presidential debates in a nonpartisan way, regarding partisan activities
undertaken in an individual capacity as opposed to an organizational capacity.

7
I.

The CPD’s Informal Conflict-of-Interest Policy
Willfully Ignores Partisan Conduct by Falling
Woefully Short of Basic Standards of Governance
Applicable to Nonprofit Organizations

The CPD’s failure to establish a formal, written conflict-of-interest policy to safeguard its impartiality contravenes the basic standards and practices of good governance that are fundamental in the nonprofit community.
This failure directly inhibits the CPD’s ability to ensure
that its board members perform their duties in a nonpartisan manner and, pursuant to their fiduciary duties as
board members, in the best interest of the CPD in furthering its mission.
That a nonprofit organization must have written and
enforceable conflict-of-interest policies is hardly controversial. In BoardSource’s most recent tri-annual survey
of nonprofit governance practices, 94% of the 1,378 responding organizations had adopted a written conflict-ofinterest policy. See Leading with Intent: 2017 National
Index of Nonprofit Board Practices 6, 52 (2017),
https://bit.ly/35S5wxW. The prior compilation by BoardSource found that 96% of nonprofit organizations surveyed had adopted a written conflict-of-interest policy.
BoardSource, Nonprofit Governance Index 2012, at 15
(2012), https://bit.ly/35UwIw7.
Conflict-of-interest guidelines were not always the
norm and so prevalent in the nonprofit sector. In 2007,
the Urban Institute reported that only half of the respondents in its national survey of nonprofit organizations
had a written conflict-of-interest policy. See The Urban
Institute, Nonprofit Governance in the United States:
Findings on Performance and Accountability from the
First National Representative Study 9 (2007), https://
urbn.is/3lVQZa4. However, the nonprofit community has
been heavily influenced by the rigorous conflict-of-interest guidelines that govern publicly traded corporations

8
and large accounting firms. The enactment of the Sarbanes-Oxley Act of 2002, Pub. L. No. 107-204, 116 Stat.
745, brought about renewed scrutiny of the governance of
nonprofit organizations. See BoardSource, The Sarbanes-Oxley Act and Implications for Nonprofit Organizations 2, 10 (Jan. 2006), https://bit.ly/3fmAUYm. Specifically, Sarbanes-Oxley introduced a provision pertaining
to the adoption and disclosure of a formal “code of ethics”
for certain officers of a reportable company “to promote * * * the ethical handling of actual or apparent conflicts of interest between personal and professional relationships.” 15 U.S.C. 7264. As a result, although not formally extended to nonprofit organizations, the corporate
governance standards under Sarbanes-Oxley have permanently altered expectations of governance practices for
nonprofit organizations. Accordingly, adoption of written
conflict-of-interest policies has increased significantly in
the nonprofit community during the past decade.
In 2005, the Panel on the Nonprofit Sector—consisting of several leaders of the nonprofit community convened by the nonprofit coalition Independent Sector—
issued a comprehensive report at the encouragement of
the leaders of the Senate Finance Committee. See Panel
on the Nonprofit Sector, Strengthening Transparency
Governance Accountability of Charitable Organizations:
A Final Report to Congress and the Nonprofit Sector
(2005), https://bit.ly/3fpf5Yc. In the report, the nonprofit
community emphasized that “charitable organizations
should adopt and enforce a conflict-of-interest policy consistent with its state laws and organizational needs.” Id.
at 8. The report, which reflected the input of “thousands
of people representing diverse organizations from every
part of the country,” ibid., instructs nonprofits to:

9
[a]dopt and enforce a conflict of interest policy
consistent with the laws of its state and tailored to
its specific organizational needs and characteristics. This policy should define conflict of interest,
identify the classes of individuals within the organization covered by the policy, facilitate disclosure of information that may help identify conflicts of interest, and specify procedures to be followed in managing conflicts of interest.
Id. at 81.
Independent Sector has since issued two additional
reports, in 2007 and 2015, explicating its principles for
good governance for nonprofit organizations. Independent Sector, Principles for Good Governance and Ethical
Practice 5-6 (2015), https://bit.ly/3nKUEIg. Both reports
counsel nonprofits to adopt and implement “policies and
procedures to ensure that all conflicts of interest (real and
potential), or the appearance thereof, within the organization and the governing board are appropriately managed
through disclosure, recusal, or other means.” Id. at 12.
The reports specifically contemplate a “written conflictof-interest policy,” with periodic monitoring for compliance, to avoid or manage any financial or non-financial
“conflict[] of interest that could affect the decisions of
board members, staff leaders, and other employees.”
Ibid. (emphasis added).
In many jurisdictions, such best practices for written
conflict-of-interest policies are reflected in legislation and
administrative guidance applicable to nonprofit organizations. For example, New York requires nonprofit organizations to adopt a conflict-of-interest policy that defines
the circumstances constituting a conflict of interest, provides procedures for disclosing such a conflict, and describes the actions that should be taken after a conflict has
been identified. See Nonprofit Revitalization Act of 2013,

10
N.Y. Not-for-Profit Corp. Law § 715-a(a)-(b). New York
law recognizes that “to ensure that [the nonprofit organization’s] directors, officers, and key employees act in
[such organization’s] best interest,” a conflict-of-interest
policy may be required to cover “types of conflicts that
may exist even though there is no financial interest at
stake.” N.Y. Att’y Gen., Conflicts of Interest Policies Under the Nonprofit Revitalization Act of 2013, Guidance
Document 2015-4, at 2-3 (Apr. 2015) (emphasis added).
The federal government, and in particular the Internal Revenue Service, also recognizes the importance for
nonprofit organizations of implementing written conflictof-interest policies to manage all actual and potential conflicts, including non-financial conflicts. In addition to routinely gathering information about the written policies of
nonprofit organizations through the applicable annual information return3 and audit procedures,4 the IRS emphasizes that board members of a nonprofit organization
should:
adopt and regularly evaluate a written conflict of
interest policy that requires directors and staff to
act solely in the interests of the charity without
regard for personal interests; include[] written
In 2007, the IRS redesigned the annual information return for
tax-exempt organizations (IRS Form 990) to enumerate several
types of written policies and procedures that such organizations are
expected to adopt, including a written conflict-of-interest policy and
regular monitoring of such policy. See IRS Form 990, Part VI, Section B, Questions 12a-c (2018).
4
For each audit of a tax-exempt organization, the IRS has directed its agents to gather information about the governance practices of such organization so that the IRS can determine whether
the organization has a written conflict-of-interest policy and, if so,
whether such policy addresses recusals and requires annual written
disclosures of any conflicts. See IRS Form 14114, Part 5, Questions
18a-c (2009).
3

11
procedures for determining whether a relationship, financial interest, or business affiliation results in a conflict of interest; and prescribe[] a
course of action in the event a conflict of interest
is identified.
IRS, Governance and Related Topics - 501(c)(3) Organizations § 4(B) (Feb. 4, 2008), https://bit.ly/3m7Wqm8 (emphasis added).
The CPD’s only existing formal policy is explicitly
limited to “financial conflicts of interest that could arise as
a result of outside employment” and does not prevent the
appearance of conflicts by the CPD board members. Pet.
App. 105a. Prohibiting financial conflicts removes only
one possible source of actual conflicts of interest; it does
nothing to address non-financial conflicts or the appearance of conflicts. Moreover, although the informal conflict-of-interest policy purports to “reflect[ ] the CPD’s
view that a debate staging organization better serves the
public when it * * * adopts and adheres to balanced policies designed to prevent even the potential for an erroneous appearance of partisanship” based on political activities undertaken by CPD-affiliated persons (including
Board members) in a personal capacity, Pet. App. 104a,
the policy is silent as to any specific mechanism for disclosure and management of situations that give rise to a realized or potential conflict.
It is unrealistic to expect that the CPD can, as its Executive Director has claimed, “operate[] completely independently of any party or political campaign,” C.A. App.
1297, while governed by an unwritten and unmonitored
conflict-of-interest policy with no formal procedure for
disclosing actual or potential non-financial conflicts. Beyond the CPD’s self-serving claim that the unwritten policy prohibits the CPD board members from “serving in
any official capacity with a political campaign,” ibid., there

12
is no indication as to whether the CPD has procedures to
follow for enforcing the informal policy, whether the informal policy includes any reporting or monitoring requirements, or if there are consequences for violating the
informal policy. Indeed, there is no suggestion that CPD
enforces the informal policy at all. The failure of the
CPD’s informal policy to conform to basic principles of
nonprofit governance all but guarantees the prevalence of
partisan conduct within the organization.
II. The CPD’s Informal Conflict-Of-Interest Policy Is
Incapable Of Preventing The Appearance Of
Partisanship

It is similarly uncontroversial, both within and outside the nonprofit community, that organizations charged
with the public trust must prevent not only actual conflicts
of interest, but also the appearance of such conflicts. In
addition to instructing organizations to adopt written policies, Independent Sector counsels that “[a] charitable organization should adopt and implement policies and procedures to ensure that all conflicts of interest (real and
potential), or the appearance thereof, within the organization and the governing board are appropriately managed
through disclosure, recusal, or other means.” Independent Sector, Principles for Good Governance, supra, at 12
(emphasis added). The CPD itself recognizes that avoiding the appearance of conflicts must be part of its mandate. C.A. App. 1298 (recognizing “the potential for an
erroneous appearance of partisanship based on political
activities undertaken by CPD-affiliated persons (including Board members) in a personal capacity” (emphasis
added)). But the CPD’s conflict-of-interest policy, such as
it is, falls short of eliminating the appearance of conflicts.
As described by the CPD Executive Director, the
CPD’s informal policy prohibits board members only from
serving in an “official” capacity on a political campaign or

13
with a political party, without any clarification as to the
meaning of “official.” C.A. App. 1297. The CPD’s policy
already lacks any enforcement mechanism, given that it is
both unwritten and informal; and the CPD extinguishes
what remains of the policy’s viability by expressly recognizing a loophole permitting board members, who make
decisions about the selection of presidential and vice-presidential debate participants, to be actively involved in partisan political activities on behalf of those very same debate participants or their parties.
The CPD compounds the problem by also recognizing a distinction between partisan political activities undertaken by the board members in their “personal capacit[ies],” as opposed to their “official capacit[ies].” C.A.
App. 1297-98. For purposes of complying with a meaningful conflict-of-interest policy that should be drafted to
help ensure that the CPD is engaging in its activities in a
nonpartisan manner, as required pursuant to its tax-exempt status and by its specific mission of hosting the presidential and vice-presidential debates, this distinction between board members’ individual and official partisan activities is entirely unrealistic.
Even if a clear line could be drawn between individual
and official partisan activities, the CPD ignores that even
individual partisan conduct by CPD board members can
taint the organization itself, specifically in light of the mission of the CPD. At a minimum, such conduct would create the appearance of a conflict of interest; the public reasonably would interpret any overtly partisan statement
by a board member as an expression of the views of the
organization itself. Carried to its logical conclusion, the
CPD would permit openly partisan conduct, so long as it
is done in board members’ ill-defined “personal capacit[ies].”

14
The alleged written “policy” is no more effective than
the unwritten “informal policy” at avoiding the appearance of conflict. As noted above, the CPD failed to disclose this policy, making it impossible to confirm that it
would actually avoid the appearance of conflict. The
CPD’s own description evinces that it would not because
it only “intends to deter” partisan activities, instead of
prohibiting them. Thus, the CPD’s leadership may continue to, and apparently does, actively support and oppose
partisan causes, notwithstanding any supposed “deterrence” from the alleged written policy.
*
*
*
An unwritten, informal conflict-of-interest policy is
tantamount to having no policy at all. The CPD fails to
meet the basic standard of governance adopted by the
nonprofit community at large. Its board members have
engaged in the endorsement of (and opposition to) political campaigns and other partisan conduct, while at the
same time bearing responsibility for ensuring that the
CPD conducts its activities in a nonpartisan way in accordance with its tax-exempt purposes. For an organization like the CPD that is charged with safeguarding the
integrity of the nation’s presidential and vice-presidential
debates, the FEC should and must demand more. And
given the importance of fair, robust political competition
to our democratic system, this Court’s review is urgently
needed.

15
CONCLUSION

For these reasons, and those stated in the petition,
the petition for a writ of certiorari should be granted.
Respectfully submitted.
REBECCA L.D. GORDON
Counsel of Record
ANDRAS KOSARAS
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
rebecca.gordon@
arnoldporter.com
Counsel for Amici Curiae

DECEMBER 2020

